  ~Sl.A.VIC"S.t"
                                                                                                   Office of Inspector General
(~4~"                  DEPARTMENT OF HEALTH & HUMAN SERVICES                                       Office of Audit Services



".~
\l~dJalJ                                                                                           Region Vll
                                                                                                   60 I East 12th Street
                                                                                                   Room 0429
              JUL 1 0 2009                                                                         Kansas City, Missouri 64106



                   Report Number: A-07-09-00316

                   Mr. Ron Simmons
                   Controller
                   Blue Cross Blue Shield of Kansas
                   1133 SW. Topeka Boulevard
                   Topeka, Kansas 66612

                   Dear Mr. Simmons:

                   Enclosed is the U.S. Department of Health and Human Services (HHS), Office ofInspector
                   General (OIG), final report entitled "Review of Postretirement Benefit Costs Claimed for
                   Medicare Reimbursement by Blue Cross Blue Shield of Kansas for Fiscal Years 2005 Through
                   2008." We will forward a copy of this report to the HHS action official noted on the following
                   page for review and any action deemed necessary.

                   The HHS action official will make final determination as to actions taken on all matters reported.
                   We request that you respond to this official within 30 days from the date of this letter. Your
                   response should present any comments or additional information that you believe may have a
                   bearing on the final determination.

                   Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
                   available to the public to the extent that information in the report is not subject to exemptions in
                   the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

                   If you have any questions or comments about this report, please do not hesitate to call me at
                   (816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
                   through e-mail at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00316
                   in all correspondence.

                                                                         Sincerely,



                                                                         Patrick 1. Cogley
                                                                         Regional Inspector General
                                                                          for Audit Services


                   Enclosure
Page 2 – Mr. Ron Simmons


Direct Reply to HHS Action Official:

Ms. Deborah Taylor, Acting Director
Office of Financial Management (OFM)
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
 

             OFFICE OF 

        INSPECTOR GENERAL 





 REVIEW OF POSTRETIREMENT 

 BENEFIT COSTS CLAIMED FOR 

MEDICARE REIMBURSEMENT BY 

 BLUE CROSS BLUE SHIELD OF 

KANSAS FOR FISCAL YEARS 2005
 

       THROUGH 2008 





                     Daniel R. Levinson
 

                      Inspector General 


                         July 2009
 

                       A-07-09-00316
 

                    Office of Inspector General
                                        http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated and operations ceased effective February 29,
2008.

Kansas sponsors a postretirement benefit (PRB) plan providing health benefits for its retirees and
their dependents. Kansas claimed PRB costs using the pay-as-you-go basis.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation and
applicable Cost Accounting Standards as required by the Medicare contracts.

OBJECTIVE

Our objective was to determine the allowability of PRB costs that Kansas claimed for Medicare
reimbursement on the pay-as-you-go method for fiscal years (FY) 2005 through 2008.

SUMMARY OF FINDING

Kansas’s claim in FY 2005 for PRB costs totaling $404,104 was reasonable and allowable;
however, for FYs 2006 through 2008, Kansas claimed $134,467 of unallowable PRB costs. The
overclaim occurred because Kansas’s method for allocating PRB costs to Medicare for FYs 2006
through 2008 did not distribute costs in a reasonable proportion to the benefits received.
Kansas’s allocation method for FYs 2006 through 2008 excluded a portion of employees from
the Total Company headcount, which resulted in an overclaim of PRB costs by $134,467.

RECOMMENDATION

We recommend that Kansas reduce the PRB costs claimed on its Final Administrative Cost
Proposals (FACP) for FYs 2006 through 2008 by $134,467.

AUDITEE COMMENTS

In written comments on our draft report, Kansas did not agree with our finding. Kansas’s written
comments are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing Kansas’s comments, we maintain that Kansas should reduce the PRB costs
claimed on its FACPs for FYs 2006 through 2008 by $134,467.




                                                i
                                                  TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION..........................................................................................................................1 


          BACKGROUND ................................................................................................................ 1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 1 

               Objective ................................................................................................................. 1 

               Scope....................................................................................................................... 1 

               Methodology ........................................................................................................... 1 


FINDING AND RECOMMENDATION.....................................................................................2 


          FEDERAL REQUIREMENTS........................................................................................... 2 


          UNALLOWABLE POSTRETIREMENT BENEFIT COSTS........................................... 2 


          RECOMMENDATION ...................................................................................................... 3 


          AUDITEE COMMENTS.................................................................................................... 3 


          OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................... 4 


APPENDIXES

          A – BLUE CROSS BLUE SHIELD OF KANSAS ALLOWABLE POSTRETIREMENT 

              BENEFIT COSTS FOR FISCAL YEARS 2006 THROUGH 2008 


          B – AUDITEE COMMENTS




                                                                     ii
            Glossary of Abbreviations and Acronyms

CMS      Centers for Medicare & Medicaid Services
FACP     Final Administrative Cost Proposal
FAR      Federal Acquisition Regulation
FY       fiscal year
Kansas   Blue Cross Blue Shield of Kansas
PRB      postretirement benefit




                                iii
                                      INTRODUCTION 


BACKGROUND

Blue Cross Blue Shield of Kansas (Kansas) administered Medicare Part A and B operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS)
until the contractual relationship was terminated and operations ceased effective February 29,
2008.

Kansas sponsored a postretirement benefit (PRB) plan providing health benefits for its retirees
and their dependents. Kansas claimed PRB costs using the pay-as-you-go basis.

PRB costs may include postretirement health care, life insurance provided outside a pension
plan, and other welfare provided after retirement. However, PRB costs do not include retirement
income and ancillary benefits, such as life insurance, that pension plans pay following
employees’ retirement.

CMS reimburses a portion of its contractors’ PRB costs. In claiming PRB costs, contractors
must follow cost reimbursement principles contained in the Federal Acquisition Regulation
(FAR) and applicable Cost Accounting Standards as required by the Medicare contracts.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of PRB costs that Kansas claimed for Medicare
reimbursement on the pay-as-you-go method for fiscal years (FY) 2005 through 2008.

Scope

We reviewed the PRB costs that Kansas claimed for Medicare reimbursement on its Final
Administrative Cost Proposals (FACP) for FYs 2005 through 2008. Achieving our objective did
not require that we review Kansas’s overall internal control structure. However, we reviewed the
internal controls related to the PRB costs claimed for Medicare reimbursement to ensure that the
PRB costs were allowable pursuant to the FAR.

Methodology

To accomplish our objective, we:

    •	 reviewed the applicable portions of the FAR as it relates to the PRB costs,

    •	 reviewed the FACPs to identify the PRB costs claimed for Medicare reimbursement for
       FYs 2005 through 2008,




                                                1

    •	 interviewed Kansas staff responsible for allocating PRB costs to determine Kansas’s
       methodology for claiming PRB costs for Medicare reimbursement,

    •	 examined Kansas’s accounting records to determine the amount of premiums paid by
       Kansas that we associated with PRB coverage, and

    •	 obtained the accounting records necessary to compute the allowable PRB costs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

We performed fieldwork at Kansas’s office located in Topeka, Kansas, during February 2009.

                           FINDING AND RECOMMENDATION

Kansas’s claim in FY 2005 for PRB costs totaling $404,104 was reasonable and allowable;
however, for FYs 2006 through 2008, Kansas claimed $134,467 of unallowable PRB costs. The
overclaim occurred because Kansas’s method for allocating PRB costs to Medicare for FYs 2006
through 2008 did not distribute costs in a reasonable proportion to the benefits received.
Kansas’s allocation method for FYs 2006 through 2008 excluded a portion of employees from
the Total Company headcount, which resulted in an overclaim of PRB costs by $134,467.

FEDERAL REQUIREMENTS

FAR 31.205-6(o)(2)(i) requires that, to be allowable for Medicare reimbursement, pay-as-you-go
PRB costs be assigned to the period in which the benefits are actually provided; or when the
costs are paid to an insurer, provider, or other recipient for current year benefits or premiums.

FAR 31.201-4(b) states that a cost is allocable to a Government contract if it benefits both the
contract and other work, and can be distributed to them in a reasonable proportion to the benefits
received.

UNALLOWABLE POSTRETIREMENT BENEFIT COSTS

Kansas’s claim in FY 2005 for PRB costs totaling $404,104 was reasonable and allowable;
however, for FYs 2006 through 2008 Kansas claimed $134,467 of unallowable PRB costs. This
overclaim occurred because Kansas’s method for allocating PRB costs to Medicare for FYs 2006
through 2008 did not distribute costs in a reasonable proportion to the benefits received.

During FYs 2006 through 2008, Kansas claimed $1,283,886 of PRB costs for Medicare
reimbursement. We determined that the allowable PRB costs for FYs 2006 through 2008 were
$1,149,419 (see Appendix A), a difference of $134,467.




                                                2

The following table compares the PRB costs claimed on Kansas’s FACPs with allowable PRB
costs.

                  Comparison of Claimed PRB Costs and Allowable PRB Costs
                             Medicare PRB Cost Claimed Variance
                   Fiscal Year  Per Kansas       Per OIG       Variance

                       2006          $     543,975        $     476,211        $    67,764
                       2007                527,490              501,890             25,600
                           1
                      2008               212,421              171,318             41,103
                      Total          $ 1,283,886          $ 1,149,419          $ 134,467     1



We determined that Kansas’s methodology to allocate PRB costs to Medicare in FY 2005 

distributed costs in a reasonable proportion to the benefits received. This methodology used, 

with respect to employee time, a ratio of total Medicare hours to Total Company hours. 


However, beginning with FY 2006, Kansas changed its method of allocating PRB costs to use
the headcount statistics to compute the ratio of Medicare employees (numerator) to Total
Company employees (denominator). We determined that Kansas’s revised methodology, which
it used for FYs 2006 through 2008, was inequitable because it excluded a portion of its
employees from the Total Company headcount when computing the Medicare ratio.
Accordingly, we computed the allowable PRB costs using a ratio of total Medicare hours to
Total Company hours, the same method Kansas used to allocate PRB costs in FY 2005. This
computation method revealed that Kansas overclaimed PRB costs for FYs 2006 through 2008 by
$134,467.

RECOMMENDATION

We recommend that Kansas reduce the PRB costs claimed on its FACPs for FYs 2006 through
2008 by $134,467.

AUDITEE COMMENTS

In written comments on our draft report, Kansas did not agree with our finding. Kansas stated
that “[t]he amounts claimed are based on an appropriate allocation methodology and are
otherwise correct.”

Kansas’s comments are included in their entirety as Appendix B.




1
Kansas terminated its Medicare contract on February 29, 2008; therefore, the FY 2008 PRB costs were for a five-
month period (October 2007 through February 2008).


                                                        3

OFFICE OF INSPECTOR GENERAL RESPONSE

Kansas provided no elaboration or further documentation to support its statement that it used “an
appropriate allocation methodology” in claiming PRB costs for Medicare reimbursement. We
maintain that on its FACPs for FYs 2006 through 2008 Kansas used an inequitable allocation
methodology when claiming PRB costs for Medicare reimbursement. Therefore, Kansas should
reduce its FACPs for FY 2006 through 2008 by $134,467.




                                                4

APPENDIXES 

       BLUE CROSS BLUE SHIELD OF KANSAS                      APPENDIX A
    ALLOWABLE POSTRETIREMENT BENEFIT COSTS                    Page 1 of 2
       FOR FISCAL YEARS 2006 THROUGH 2008


                       FY 2006
                 Medicare Total Company       Medicare
     Month        Hours        Hours1          Ratio
October 2005        67,311        263,453
November 2005       70,428        277,774
December 2005       62,444        240,962
January 2006        58,817        229,729
February 2006       67,731        272,443
March 2006          66,334        275,485
April 2006          56,174        246,110
May 2006            63,142        279,198
June 2006           54,558        247,322
July 2006           47,197        212,734
August 2006         64,234        290,913
September 2006      57,117        254,811
                                                         2
         Total      735,487       3,090,934    23.79%

                                          3
                 Total PRB Premiums Paid $2,001,726
 

                 Total Allowable PRB Costs 4 $476,211
 



                       FY 2007
                 Medicare Total Company Medicare
     Month        Hours        Hours     Ratio
October 2006        59,036       271,119
November 2006       65,377       296,569
December 2006       52,245       239,603
January 2007        81,371       245,971
February 2007       55,782       248,905
March 2007          62,790       338,508
April 2007          35,433       224,038
May 2007            59,462       262,615
June 2007           56,841       245,354
July 2007           54,484       238,170
August 2007         62,538       353,628
September 2007      48,734       239,532
         Total      694,093       3,204,012    21.66%

                 Total PRB Premiums Paid $2,317,128
 

                 Total Allowable PRB Costs $501,890
 

                             BLUE CROSS BLUE SHIELD OF KANSAS                                 APPENDIX A
                          ALLOWABLE POSTRETIREMENT BENEFIT COSTS                               Page 2 of 2
                             FOR FISCAL YEARS 2006 THROUGH 2008


                                               FY 2008
                                         Medicare Total Company Medicare
                         Month            Hours        Hours     Ratio
                     October 2007           55,896       257,299
                     November 2007          47,286       248,764
                     December 2007          40,300       213,035
                     January 2008           48,742       278,965
                     February 2008          47,543       441,017
                                 Total      239,767        1,439,080      16.66%

                                         Total PRB Premiums Paid $1,028,319
                                         Total Allowable PRB Costs       $171,318

FOOTNOTES

  1/ We obtained the monthly Medicare and Total Company hour summaries for fiscal years (FY) 2006
     through 2008 from internal reports provided by Blue Cross Blue Shield of Kansas (Kansas).

  2/ We calculated the Medicare ratio by dividing the total Medicare hours (numerator) by the Total
     Company hours (denominator).

  3/ We obtained the total Postretirement Benefit (PRB) premiums paid for each year from documents
     provided by Kansas.

  4/ We determined the total allowable PRB costs for FYs 2006 through 2008 by multiplying the
     Medicare ratio by the total PRB premiums paid.
APPENDIX B 

